IN THE SUPREME COURT OF THE UNITED STATES
JOSH BOWMAN, Petitioner
vs.
BERT BOYD, WARDEN, Respondent

ON PETITION FOR WRIT OF CERTIORARI TO
THE UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT

CERTIFICATE OF SERVICE

Notice is hereby given that a true and exact copy of this petition and
all accompanying documentation has been serviced upon the following:
Tennessee Attorney General and Reporter
301 6th Avenue North
Post Office Box 20207
Nashville, Tennessee 37202-0207
By placing same in the United States Mail, first-class postage prepaid
on this the 30th day of June, 2020.

Josh Bowman,
Petitioner pro se
NECXU08 - 00321732
Northeast Correctional Complex
5249 Highway 67 West
Post Office Box 5000
Mountain City, Tennessee 37683-5000

